<html>
<title> - H.R. 2635, THE CARBON-NEUTRAL GOVERNMENT ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
          H.R. 2635, THE CARBON-NEUTRAL GOVERNMENT ACT OF 2007 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2635

   TO REDUCE THE FEDERAL GOVERNMENT'S CONTRIBUTION TO GLOBAL WARMING 
 THROUGH MEASURES THAT PROMOTE EFFICIENCY IN THE FEDERAL GOVERNMENT'S 
           MANAGEMENT AND OPERATIONS, AND FOR OTHER PURPOSES

                               __________

                              MAY 17, 2007

                               __________

                           Serial No. 110-47

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov
                               ----------
                       U.S. GOVERNMENT PRINTING OFFICE 

41-853 PDF                     WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















































             COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
CHRISTOPHER S. MURPHY, Connecticut   TODD RUSSELL PLATTS, Pennsylvania,
PETER WELCH, Vermont                 JOHN J. DUNCAN, Jr., Tennessee
CAROLYN B. MALONEY, New York
                    Michael McCarthy, Staff Director
























































                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 17, 2007.....................................     1
Text of H.R. 2635................................................     4
Statement of:
    Figdor, Emily, director, Federal global warming program, U.S. 
      Public Interest Research Group; Jeffrey Harris, vice 
      president for programs, Alliance to Save Energy; and 
      Marshall Purnell, first vice-president/president-elect, the 
      American Institute of Architects...........................    45
        Figdor, Emily............................................    45
        Harris, Jeffrey..........................................    56
        Purnell, Marshall........................................    70
Letters, statements, etc., submitted for the record by:
    Figdor, Emily, director, Federal global warming program, U.S. 
      Public Interest Research Group, prepared statement of......    47
    Harris, Jeffrey, vice president for programs, Alliance to 
      Save Energy, prepared statement of.........................    59
    Purnell, Marshall, first vice-president/president-elect, the 
      American Institute of Architects, prepared statement of....    73


          H.R. 2635, THE CARBON-NEUTRAL GOVERNMENT ACT OF 2007

                              ----------                              


                         THURSDAY, MAY 17, 2007

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Edolphus Towns 
(chairman of the subcommittee) presiding.
    Present: Representatives Towns, Welch, Platts, Duncan, 
Issa, Bilbray, Waxman, and Davis of Virginia.
    Staff present: Michael McCarthy, staff director; Velvet 
Johnson, counsel; Cecelia Morton, clerk; David Marin, minority 
staff director; A. Brooke Bennett, minority counsel; Larry 
Brady, minority senior investigator and policy advisor; and 
Benjamin Chance, minority clerk.
    Mr. Towns. The subcommittee will come to order.
    Today's hearing is on an important new bill to make the 
Federal Government a leader in reducing emissions that could 
contribute to global warming. Chairman Henry Waxman is the 
author of this bill and has joined us today. I would like to 
recognize him first to give an introduction of the bill and 
then we will proceed with the rest of the opening statements. 
Let me yield now to the chairman of the full committee, Mr. 
Henry Waxman from California.
    Mr. Waxman. Thank you very much, Mr. Chairman. I appreciate 
this courtesy that you are extending to me. In the months and 
years ahead, we will be asking Americans to make many changes 
to combat irreversible climate change. Companies will be asked 
to internalize the costs of global warming pollution, to 
operate more efficiently, and to innovate and find newer and 
cleaner ways to operate. Families will be asked to make their 
homes energy efficient and to buy fuel efficient vehicles.
    What this bill does is say that the Federal Government 
should lead the effort to protect the planet from global 
warming.
    Over the last few years, the reverse has happened. As 
companies have stepped up to act on global warming, the Federal 
Government has stepped back.
    On January 24, 2007, President Bush issued an Executive 
order that actually repealed a previous Executive order calling 
for the Government to reduce its greenhouse gas emissions.
    The legislation we are considering today says that the 
Federal Government is no longer going to be doing the least. It 
will become the world leader.
    This bill aims to freeze and dramatically reduce the 
Federal Government's greenhouse gas emissions until we achieve 
a carbon-neutral Government in 2050. It also includes specific 
requirements for agency actions to help the Government meet 
these goals.
    The Federal Government is the largest energy consumer in 
the United States and probably the world. A carbon-neutral 
Government is a symbol that the United States will set the 
standard for environmental responsibility.
    The Federal Government's actions can also transform the 
economy. The Federal Government owns or controls a huge number 
of buildings, vehicles, planes, and other equipment, and it 
makes hundreds of billions of dollars of purchases every year. 
Entire industries have developed solely to meet the 
Government's demands for goods and services. Because Government 
needs drive technology advances and create markets for new 
goods, Federal action can help develop a more vibrant and 
cleaner economy.
    The Carbon-Neutral Government Act of 2007 establishes the 
goals and the mechanisms to harness this potential. Under the 
legislation, Federal agencies must freeze emissions in 2010, 
reduce emissions to meet annual targets, and achieve zero net 
emissions by 2050.
    To help Federal agencies meet these requirements, the bill 
contains specific complementary policies to lower emissions 
through reducing fuel use and increasing energy efficiency in 
Federal operations.
    Nearly two thirds of all energy consumed by the Federal 
Government in 2005 was for fuel used for mobility--vehicles, 
planes, ships, and other equipment. The Carbon-Neutral 
Government Act will reduce these emissions from vehicles by 
requiring Government vehicles to meet the California standards 
for motor vehicle greenhouse gas emissions.
    The bill also adopts recommendations by the Defense Science 
Board and others to ensure that agencies use the real cost of 
fuel when assessing the cost effectiveness of efficiency 
improvements in equipment. Fuel priced at $2.50 at the pump can 
cost an agency 15 times that or more once it is delivered to 
the point of use in a battlefield or remote location. 
Considering the real cost will drive agencies to acquire 
significantly more efficient equipment and enjoy substantial 
operational cost savings.
    The Federal Government owns or leases over 500,000 
facilities. The electricity and other energy used in these 
facilities accounts for nearly 45 percent of the Government's 
greenhouse gas emissions. The Carbon-Neutral Government Act 
tackles emissions from both new and existing facilities.
    For new facilities, the bill sets ambitious but achievable 
goals recommended by the American Institute of Architects. For 
existing facilities, the bill requires Energy Star benchmarking 
and energy audits to identify opportunities for improvements.
    The bill also strengthens the requirements for agencies to 
procure energy efficient products.
    President Kennedy did not know exactly how we would get to 
the moon when he set that goal, but once committed to that 
goal, the Nation found the way. And in doing so we created new 
space age technologies that led the world.
    That is the kind of Federal leadership we need to respond 
to the threat of global climate change.
    I thank you, Mr. Chairman, for holding this hearing and for 
considering at this hearing opinions from the witnesses on how 
we can achieve what we all should want to achieve--a reduction 
in energy use and dependance on energy, as well as dealing with 
the climate change pollutants that are threatening our planet.
    [The text of H.R. 2635 follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much, Chairman Waxman. Of course, 
we really appreciate your involvement in this hearing. And, of 
course, we would not be here today if it had not been for your 
involvement.
    At this time, I would like to yield to the ranking member 
of the full committee, from the State of Virginia, Congressman 
Davis.
    Mr. Davis of Virginia. Well, thank you very much, Chairman 
Towns.
    Today, Mr. Issa, who is one of our ranking members on one 
of the subcommittees, and I have asked the Government 
Accountability Office to conduct a comprehensive review of 
greenhouse gas emission offset markets so we can understand 
better how these markets operate.
    We think it is a timely request as more and more climate 
change legislation, including that under consideration today, 
relies upon purchasing offsets to reduce net greenhouse gas 
emissions.
    Climate change is one the most urgent matters we face here 
in the Congress, and I think we need to be thoughtful as we 
look at legislation and appropriate offsets. Unfortunately, we 
have just seen the legislation for the first time last evening.
    I hope that we will be able to hear from different Federal 
agencies before we mark this up so we can get an appropriate 
response from them now that we have a bill that is marked.
    I look forward to the testimony from the advocates that are 
here today. I know that you have longstanding interest in this. 
I am particularly interested in some of the vehicle fleet 
requirements and some things we can do at the Federal level to 
utilize our purchasing power to try to drive markets.
    So it is timely. I am not ready yet to make a decision one 
way or the other until we have heard from some of the other 
stakeholders on this and have had a chance to digest the 
legislation.
    But I appreciate the chairman bringing this forward, and I 
appreciate you holding this hearing. Once again, I look forward 
to our witnesses.
    Mr. Towns. Thank you, Tom, very much. Now I yield to 
Congressman Welch.
    Mr. Welch. Thank you, Mr. Chairman, and thank you Chairman 
Waxman.
    The crisis of global warming, as you have said, is real, 
urgent, and requires immediate action. I am among those who 
believe that by embracing that challenge we can move forward 
with a pro-environment, pro-growth, pro-national security 
economy.
    We can take concrete steps. This is a big bill and all of 
us are optimistic that if we accept the challenge that Chairman 
Waxman outlined, that we are going to make enormous progress 
for this country. But we can take small steps along the way.
    My congressional office is now carbon-neutral. We did it by 
providing financial support for a couple of Vermont renewable 
energy projects. And by doing so I was able to offset the 
greenhouse gas emissions related to just the day to day 
activities of my office--turning the lights on, flying back and 
forth between Washington and Vermont, driving around my 
district when I am doing my work as a Member of Congress.
    The legislation that we discuss today is a great example of 
how to take concrete steps forward. And by moving forward on a 
carbon-neutral Federal Government, we will be able to 
demonstrate the necessary leadership in action that is required 
to solve this problem.
    And this Congress must be the Congress to finally, 
squarely, and aggressively address the significant threat that 
global warming is to our world. We started in January, we 
continue today, and we all have the obligation, working 
together, to be successful for the future.
    Thank you.
    Mr. Towns. Thank you very much. I now yield to a person who 
has the same birthday that I have. I knew he was special. Of 
course, Congressman Duncan.
    Mr. Duncan. Well, thank you Mr. Chairman, and you know of 
my great admiration and respect for you.
    Let me just say that I appreciate your calling this 
hearing. It is a very important topic, a very important 
subject. And in fact, I am not going to stay for much of this 
hearing because I sat through several hours of the hearing on 
this same topic yesterday in the Transportation and 
Infrastructure Committee.
    This may be good legislation, but it does need to be 
thoroughly discussed and debated. Most of us on our side 
certainly have no objection to the debate; we think it should 
be carried out.
    We do have some concerns, though, about the tenor of the 
debate. To show you what I mean, I will read something that 
Richard Lindzen, who is a professor of atmospheric science at 
MIT, wrote a few months ago about what he called the alarmism 
and feeding frenzy surrounding the climate change global 
warming debate.
    He said, ``But there is a more sinister side to this 
feeding frenzy. Scientists who dissent from the alarmism have 
seen their grant funds disappear, their work derided, and 
themselves libeled as industry stooges, scientific hacks, or 
worse. Consequently, lies about climate change gain credence, 
even when they fly in the face of the science that supposedly 
is their basis.''
    Professor David Deming, a geophysicist, wrote, ``The media 
hysteria on global warming has been generated by journalists 
who don't understand the provisional and uncertain nature of 
scientific knowledge. Science changes.''
    And Robert Bradley, president of the Institute for Energy 
Research wrote that, ``The emotional politicized debate over 
global warming has produced a fire, ready, aim mentality 
despite great and still growing scientific uncertainty about 
the problem.'' And he went on to say, ``Still climate alarmists 
demand a multitude of do-somethings to address the problem they 
are sure exists and is solvable. They pronounce the debate over 
in their favor and call their critics names such as deniers, as 
in Holocaust-deniers. This has created a bad climate for 
scientific research and policymaking. In fact the debate is 
more than unsettled.''
    The reason I read those quotes is this: yesterday in our 
hearing, we were told by many, many witnesses from business and 
industry, trade associations, and environmental groups of all 
the great things that are being done to combat this problem at 
this time.
    The witness from the American Association of Railroads, for 
instance, said that while all the trains in the United States 
use 4.6 billion gallons of fuel a year, that is 3.3 billion 
less than they would have without those improvements.
    The witness from GE talked about dynamic braking, and how 
in train cars, buses, and cars, they are getting energy from 
braking systems now.
    They are doing marvelous and miraculous things that could 
not have been done just a few years ago. We will have 
tremendous progress toward solving this problem if we do not 
over-regulate and socialize our economy. If we leave it up to 
the free enterprise, free market system we will make great 
progress.
    The worst polluters in the world are the socialist and 
communist countries because their systems do not generate the 
excess funds that are needed to do the good things for the 
environment that all of us want done.
    So with those few points, I thank you for calling this very 
important hearing.
    Mr. Towns. Thank you very much. At this time I ask 
unanimous consent that the gentleman from California, Mr. Issa, 
participate in today's hearing. Without objection, so ordered.
    With that in mind, I yield 5 minutes to the gentleman from 
California.
    Mr. Issa. I thank the chairman. I thank you very much for 
allowing me to participate today.
    Through the work on my subcommittee of this full committee 
and also my time in Energy and Commerce, I have certainly have 
continued to have a keen interest in how we are going to lower 
emissions. And as somebody who believes that we do have to deal 
with CO<INF>2</INF>, I regrettably come here today with a few 
maybe disconcerting remarks.
    Most importantly net carbon emissions are going to be 
reduced through carbon offsets. These offsets are going to be 
purchased by households and by airline passengers and are being 
proposed for purchase by the Federal Government.
    I am concerned about this legislation under consideration 
today and the process that has gotten us to this point because, 
as far as I am aware, the majority did not ask anyone from the 
Federal Government to testify. I do not see any administration 
witnesses before me. So how is the committee to make an 
informed decision on this legislation without hearing from the 
one entity that will be affected most?
    On Monday afternoon we got the highlights of this bill. On 
Tuesday afternoon we got a draft of the bill which included the 
finding that individuals will suffer from global warming harms. 
And on Wednesday afternoon, we got another draft of the bill 
that includes an interesting section on judicial review.
    As a member of the Judiciary Committee, and I just stepped 
out to come into here, let me tell you what the judicial review 
provision will be: Step one, say that you have been harmed by 
global warming, perhaps a sunburn; step two, find a Federal 
agency that has not complied with the terms of the act; step 
three, hire a lawyer; step four, file a suit in any district 
court in the United States. My vote would of course be 
Berkeley, CA; step five, win your case and get $100,000 plus 
your attorney's fees and of course your expert witnesses; step 
six, repeat steps one through five.
    This looks to me like full employment for the trial lawyers 
in the class action lawsuits. Perhaps John Edwards should 
reconsider his Presidential run.
    Let me make it clear, I am not a global climate warming 
denier. Just the opposite. I recognize that we are going to 
have to work on a bipartisan basis to craft legislation that 
preserves our economy and our ability to be, in fact, a global 
leader in cleaning up the environment while maintaining a 
lifestyle that Americans have earned and come to expect.
    I look forward to us including those not included today so 
that we can, in fact, come up with a system. If it includes cap 
and trade, then, in fact, we will work for all of that.
    Mr. Chairman, once again, I want to thank you for giving me 
the opportunity to sit on the panel. I look forward to the 
witnesses. I yield back.
    Mr. Towns. Thank you very much. I appreciate your comments, 
but I want to assure you that we will be hearing from others as 
we move forward. And I am certain that is the reason why we 
have these hearings. To get the experts to come in and share 
with us, and then after that we will be able to move forward.
    This bill is not a bill that cannot be improved, or cannot 
be amended. I think what we need is to start somewhere. And 
that is the first step.
    Mr. Issa. I thank the chairman, and I will note that I no 
more than made my statement and suddenly the Government was 
here. I am going to take credit for that Mr. Chairman. Thank 
you.
    Mr. Towns. Thank you. At this time I yield to a gentleman 
whom I have had the opportunity to work with now for many, many 
years. You know he was the Chair of the subcommittee, and of 
course, I had the opportunity to work with him. As always, it 
is a delight to see him, and now I would like to yield to him. 
Congressman Platts from Pennsylvania.
    Mr. Platts. Thank you, Mr. Chairman. I appreciate your 
holding a hearing, and I apologize for coming in late and, as 
typical, not being able to stay.
    I am not sure, I will throw out a question in the way the 
legislation is written, if it addresses the Federal 
Government's efforts in how we can reduce our impact on global 
warming, specifically on the fuel consumption of the Federal 
Government's fleet.
    I am a strong supporter of increasing fuel efficiency and, 
in fact, I am the lead Republican, with Ed Markey as our lead 
sponsor, of the fuel efficiency legislation that would take us 
up to 35 miles per gallon for all passenger vehicles in 10 
years, roughly. Is there an estimate, if we were able to do 
that in the Federal Government fleet, of what that alone would 
do? Are any of the witnesses aware of those numbers? Any 
guesstimates? Or is this too broad a question?
    Mr. Towns. Let me make a note of it and you can probably 
respond.
    Mr. Platts. Actually, Mr. Chairman, I thought you already 
had gone through the witness statements.
    Mr. Towns. No, they have not been sworn in yet.
    Mr. Platts. I was wondering why Mr. Issa was doing such a 
long statement on a question. I thought you started before the 
votes and I was catching up in the question period.
    Mr. Towns. No, no, no, they have not been sworn in yet. 
After that, then you can ask the question.
    Mr. Platts. After that? OK, I will think about that 
question. And we are going to come back to it.
    My opening statement is thank you for allowing me to be 
here, Mr. Chairman. Thank you.
    Mr. Towns. I am sure that they made notes of your comments, 
and I am certain that they will be responding in their answers.
    I have always said that to solve our energy and 
environmental problems, we cannot look for one silver bullet. 
We have to combine several approaches to tackle such a big 
issue.
    That is why I like this bill. It does not pick one thing 
and say it is the answer to all of our problems. It sets out 
long term goals and short term steps to get there. And it 
recognizes that we should look at efficiency, new technology, 
buildings, and transportation all together. We must look at all 
of this.
    Our environment and our use of energy are some of the most 
important issues for the Federal Government. I am glad to be 
Chairing the hearing today where we will get information coming 
from the witnesses and be able to use this information to put 
together the kind of legislation that we know will benefit not 
only the Nation, but also the world, from what we might decide 
to do here.
    Let me turn now to our witnesses. Let me say that it is 
committee policy that witnesses are always sworn in. So will 
you please stand and raise your right hands?
    [Witnesses sworn.]
    Mr. Towns. Let it be known that they all answered in the 
affirmative. You may be seated. Let me introduce our witnesses 
as we move forward here.
    Emily Figdor is Director of the Federal Global Warming 
Program at the U.S. Public Interest Research Group. We are 
delighted to have you here today. She is the author of numerous 
reports on global warming and the role of energy efficiency 
technology in reducing human impacts on the climate.
    Jeffrey Harris is vice president of programs at the 
Alliance to Save Energy. He worked for more than 25 years at 
the Lawrence Berkeley National Laboratory and has extensive 
experience in Government energy management and energy 
efficiency procurement practices. Welcome. We are delighted to 
have you here.
    And we also have with us Marshal Purnell, who is the 
president-elect of the American Institute of Architects. Mr. 
Purnell has worked on such notable projects as the Washington, 
DC, Convention Center, the MCI Arena, and projects of the 
Department of State, U.S. Navy, and the Army Corps of 
Engineers. Welcome.
    Let me just say up front, your entire statement will be 
included in the record. I would like to ask each witness to 
take 5 minutes, and, of course, after that be prepared for 
questions.
    So why don't we begin with you, Ms. Figdor.

 STATEMENTS OF EMILY FIGDOR, DIRECTOR, FEDERAL GLOBAL WARMING 
 PROGRAM, U.S. PUBLIC INTEREST RESEARCH GROUP; JEFFREY HARRIS, 
   VICE PRESIDENT FOR PROGRAMS, ALLIANCE TO SAVE ENERGY; AND 
  MARSHALL PURNELL, FIRST VICE-PRESIDENT/PRESIDENT-ELECT, THE 
                AMERICAN INSTITUTE OF ARCHITECTS

                   STATEMENT OF EMILY FIGDOR

    Ms. Figdor. Thank you for the opportunity to share my views 
regarding Chairman Waxman's Carbon-Neutral Government Act.
    My name is Emily Figdor and I am the director of the 
Federal Global Warming Program at U.S. Public Interest Research 
Group. USPIRG is the federation of State PIRGs and affiliated 
State environment groups, with a combined membership of nearly 
1.3 million people nationwide.
    I applaud the chairman for writing this important piece of 
legislation. This bill would catapult the U.S. Government, for 
too long a laggard in solving global warming, to being a leader 
and setting the example. My testimony will focus on the need 
for large, overall reductions in global warming emissions to 
avoid dangerous global warming and the role of this legislation 
in beginning to achieve those reductions.
    Science is clear that the world faces dramatic consequences 
if we fail to rein in global warming emissions from the burning 
of fossil fuels. Yet science is also clear that what we do now 
can make a real difference and enable us to avoid the worst 
consequences of a warming world.
    To prevent large-scale dangerous impacts of global warming, 
such as setting in motion the complete melting of the Greenland 
ice sheet and mass species extinctions, the United States must 
stabilize its emissions this decade, and then reduce them by at 
least 15 to 20 percent by 2020 and by at least 80 percent by 
2050.
    While preventing dangerous global warming is a daunting 
challenge, we already have the energy efficiency and renewable 
energy technologies needed to achieve the required short and 
medium-term reductions. But time is of the essence, which 
brings me to the Carbon-Neutral Government Act.
    The bill, as we heard earlier, would freeze global warming 
emissions from the Federal Government at 2010 levels and then 
reduce them steadily each year through 2050, at which point the 
Federal Government would be carbon-neutral. This level of 
reduction in emissions is consistent with the pace and 
magnitude of the reductions demanded by the science.
    The bill backs up its commitment to carbon-neutrality with 
a series of sound policy steps, including strong safeguards to 
ensure the integrity of any emission offsets used to meet the 
requirements of the bill, global warming emissions standards 
for Federal vehicle fleets, and other measures that would 
improve the energy efficiency of Federal operations.
    The bill would have four major impacts. First, it would 
achieve significant reductions in U.S. global warming 
emissions. The Federal Government is the single largest energy 
consumer in the United States and the leading contributor to 
global warming emissions. By making the Federal Government 
carbon-neutral by 2050, the bill would zero out these 
emissions.
    Second, because the Federal Government is a major purchaser 
of goods and services, the bill would spur markets for the 
development of clean energy technologies that we will need in 
order to effectively address global warming.
    Third, it would demonstrate the Federal Government's 
willingness to lead by example. A serious national effort to 
reduce emissions to stave off dangerous global warming will 
require effort on the part of all Americans in all sectors of 
the economy.
    And fourth, the bill would show the international community 
that the United States is committed to taking the threat posed 
by global warming seriously. It would be a first step toward 
the kind of meaningful domestic action that can reestablish 
American leadership in the fight against global warming.
    Because global warming emissions from cars and SUVs are 
rising very rapidly nationwide, I would like to spend a minute 
on the Federal fleet standards in the bill. The bill would put 
the purchasing muscle of the Federal Government behind the 
drive for cleaner cars. It would send a clear message to 
automakers that a significant market will exist for clean, 
energy efficient vehicles. Low emission vehicles also would 
reduce oil consumption, thereby enhancing America's energy 
security and protecting the interests of taxpayers.
    In closing, global warming is a challenge of historic 
scale. A Federal commitment to carbon-neutrality would be an 
important first step in rising to the challenge. The next step 
is to pass Chairman Waxman's Safe Climate Act, which would 
limit total U.S. global warming emissions to the levels needed 
to prevent dangerous global warming.
    The bottom line is that if we get started now, the United 
States can help stave off the biggest environmental threat of 
the 21st century. At the same time we can break our dependance 
on oil, enhance our long-term economic and national security, 
and once again lead the world as a positive force for change.
    [The prepared statement of Ms. Figdor follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much, Ms. Figdor, for your 
comments. And, of course, we look forward to questions later 
on.
    Mr. Harris, will you proceed?

                  STATEMENT OF JEFFREY HARRIS

    Mr. Harris. Thank you, Mr. Chairman, for the opportunity to 
testify today and for the chance to work with the 
subcommittee's excellent staff to explore ideas and solutions 
to this important problem.
    My name is Jeffrey Harris. I am the vice president of 
programs at the Alliance to Save Energy. The Alliance is a 
bipartisan, non-profit coalition of more than 120 business, 
Government, environment, and consumer leaders. Our mission is 
to promote energy efficiency worldwide to achieve a healthier 
economy.
    We are currently enjoying our 30th anniversary, having been 
founded in 1977 by Senators Charles Percy and Hubert Humphrey. 
We currently enjoy the leadership of Senator Mark Pryor as our 
Chair, with congressional Vice Chairs Congressman Ed Markey, 
Zach Wamp, and Ralph Hall, along with Senators Jeff Bingaman, 
Susan Collins, Larry Craig, and Byron Dorgan.
    This year the Alliance Board of Directors formed a new 
committee, the Government Energy Leadership Action Team, to 
address the many important opportunities for Federal sector 
energy savings and, as several people have commented, Federal 
leadership.
    I would like to begin with a few comments on the need and 
importance for energy efficiency and reduced energy waste in 
the Federal Government, and then turn to some specific 
provisions of Chairman Waxman's proposed Carbon-Neutral 
Government Act of 2007. As you have heard repeatedly, the U.S. 
Government is the world's single largest user of energy and 
also the largest waster of energy.
    In 2005, Federal agencies accounted for about 2 percent of 
the country's total energy use, and this cost U.S. taxpayers 
about $14.5 billion. Of this total, about $5 billion goes to 
heat, cool, and power the 500,000 Federal buildings in the 
country. But the majority of the energy is used for mobility 
purposes. This includes light and heavy duty vehicles, military 
aircraft and ships, and a large variety of mobile systems that 
must be deployed and fueled wherever they are needed, whether 
for defense, disaster relief and recovery, scientific research, 
or a host of other Federal purposes.
    Thanks to efforts by the Congress and by Federal agency 
leaders, Government as a whole has reduced its primary energy 
use 13 percent in the past 10 years, and reduced its energy 
bill 25 percent in real dollars. But there is a potential for 
greater savings, and far more to do, especially in mobility 
energy.
    There are a number of existing targets, standards, and 
requirements that aim at reducing Federal energy use. Most of 
them currently deal with Federal buildings. And a number of 
them were put in place within the last 2 years, so achieving 
them fully remains a challenge and will require active 
involvement of Congress in three areas.
    One particularly relevant to this subcommittee is 
oversight. A second is assuring adequate funding and, in a few 
cases, supplementing or strengthening existing laws, as we have 
seen with the proposed legislation that we are discussing 
today.
    The Alliance believes, though, that the most important 
first step in reducing Federal energy use is to make sure that 
the policies already in place are fully implemented. These 
include energy efficiency standards for new buildings, energy 
metering and savings targets for existing buildings, 
performance contracting for third party financing to improve 
efficiency in those buildings, energy efficient Government 
purchasing, and the use of life-cycle costs as the basis for 
investment decisions. Congress's first role here is to conduct 
thorough and sustained oversight to help focus the attention of 
Government officials on meeting their obligations and achieving 
their energy savings targets cost effectively.
    Second, though, Congress has to assure adequate funding for 
energy efficiency improvements that will generate and sustain 
long-term savings. Billions of dollars of investments are 
needed and warranted to meet these energy targets. However, in 
recent years, actual appropriations for Federal agencies have 
fallen well short of these needs, ranging from about $100 
million to $300 million a year. These appropriations need to be 
increased, but, at the same time, Congress can take steps to 
encourage Federal agencies to make much more aggressive use of 
the innovative financing tools that are available to them--
energy savings performance contracts, or ESPCs, and utility 
energy service contracts, UESCs. I am sure you will hear more 
about this as you call on Federal agency representatives.
    A third and equally critical role, though, for Congress is 
to consider new legislation that expands the scope and impact 
of Federal energy management. The Alliance supports a number of 
important energy efficient provisions in the Carbon-Neutral 
Government Act of 2007. First is the overall emissions 
inventory and reductions targets for greenhouse gases within 
the Federal sector. And it is very important that these cover 
both mobility energy use and fixed facilities.
    Second, the requirements that we just spoke about that 
Federal agencies acquire more energy efficient and lower 
emitting fleet vehicles. Third, and another very important new 
provision, is that agencies use the fully burdened cost of fuel 
when planning and acquiring these mobile systems that will be 
deployed for defense and other purposes. And as was noted 
earlier by Chairman Waxman, this recommendation comes from the 
Department of Defense Science Board's path-breaking 2001 study.
    A fourth provision that is very important is to increase 
the stringency of energy standards for new Federal buildings so 
that they match the goals of the AIA's Vision 2030 that you 
will hear about from Mr. Purnell, and also incorporate 
provisions of the U.S. Green Building Council's Leadership in 
Energy and Environmental Design [LEED], rating system.
    There are a number of other provisions that are important. 
In the interest of time let me skip over those. They are 
covered in our testimony. But let me note in closing two other 
provisions that we think are very important. One is that we 
believe that agencies should be directed by statute to conduct 
regular energy savings evaluations for energy and water 
efficiency measures in their facilities and to implement all 
measures that have paybacks of 15 years or less.
    And a second one that we think would be an important 
addition to the provisions in the proposed law are to apply 
principles of smart growth in siting new Federal facilities so 
that these facilities are accessible to public transit, to 
bicyclists, to pedestrians, alternatives to single occupancy 
vehicles.
    And with that, let me conclude my comments and I will be 
glad to answer questions.
    [The prepared statement of Mr. Harris follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much, Mr. Harris. Now, Mr. 
Purnell.

                 STATEMENT OF MARSHALL PURNELL

    Mr. Purnell. Mr. Chairman, members of the subcommittee, 
good afternoon. My name is Marshall Purnell. I am president-
elect of the American Institute of Architects. On behalf of our 
81,000 members and the 281,000 Americans who work for 
architectural firms nationwide, I would like to thank you for 
the opportunity to appear here today.
    I would like to share the thoughts of our Nation's 
architects on energy consumption and how it relates to the most 
overlooked sector in the greenhouse gas debate--buildings, the 
buildings in which our people live, work, and play. I have 
submitted written testimony to the subcommittee, but I would 
like to stress those points the AIA feels are important.
    I commend you for holding this hearing to examine 
strategies that would reduce the amount of fossil fuel 
generated energy consumed by the Federal Government. 
Furthermore, I would like to convey the AIA's strong support 
for the legislation being discussed here today. The Carbon-
Neutral Government Act of 2007 makes major strides toward 
reducing the amount of fossil fuel-generated energy our 
Government consumes. This bill will improve the Federal 
Government's energy efficiency, as well as decrease the amount 
of greenhouse gas we produce.
    In particular, the AIA strongly supports Section 204, which 
establishes energy performance standards for new Federal 
buildings and buildings undergoing major renovations. This 
section builds upon an AIA policy position which calls for 
carbon-neutral buildings by 2030. We are extremely pleased to 
see that the committee has included our 2030 goals in this 
bill, and our timetable.
    According to the U.S. Department of Energy, buildings and 
their construction are responsible for nearly half of all 
greenhouse gas emissions in the United States every year. The 
building sector alone accounts for nearly 39 percent of the 
total U.S. energy consumption, more than either the 
transportation or the industry sectors. Buildings consume 71 
percent of U.S. electricity production, and buildings in the 
United States account for 9.8 percent of carbon dioxide 
emissions worldwide. Put another way, U.S. buildings account 
for nearly the same amount of carbon emissions as the entire 
economies of Japan, France, and the United Kingdoms, combined.
    If we want to be serious about energy use reductions, 
buildings must become a significant part of the discussion. And 
by including energy reduction targets for new Federal buildings 
in this bill, it is clear this committee understands this. The 
AIA believes that architects must advocate for the sustainable 
use of our Earth's resources. We have adopted an official 
position establishing energy reduction targets in buildings. 
Architects across the country have embraced this position and 
are expanding the use of design practices that enhance design 
quality as they increase the environmental performance of 
buildings.
    Federal building energy efficiency. The AIA is pleased to 
see that Section 204 closely mirrors our recommendations to 
require Federal agencies to immediately ensure that new 
buildings and buildings undergoing major renovations consume no 
more than half the fossil fuel energy that a similar Federal 
building consumed in the year 2003.
    Beginning in 2010, agencies should be required to meet a 
declining cap on energy consumption, such that they meet 
minimum energy reductions compared to the 2003 baseline. We 
propose that by 2010, new and significantly renovated Federal 
buildings be required to reduce fossil fuel generated energy by 
60 percent. By 2015, the cap should be lowered to a 70 percent 
reduction, continuing until 2030 when we should achieve a 100 
percent reduction in fossil fuel generated energy in all 
Federal buildings.
    These energy reduction targets are included in this bill 
and we applaud the committee for their leadership on this 
issue. Setting declining caps on energy usage is not a new 
idea. In the past, Congress has passed similar legislation. And 
recently several States have adopted energy reduction targets. 
These are important first steps. Energy reduction requirements 
have shown a record of success, as referenced in my written 
testimony. It demonstrates that the energy reduction targets 
within this legislation are readily achievable.
    Furthermore, the technology needed to design carbon-neutral 
buildings exists. Architects across the country are designing 
high performance green buildings that are environmentally 
responsible, healthy, and productive places to work. My written 
testimony provides many details on sustainable design 
techniques, and I am happy to answer any questions from the 
subcommittee on this subject.
    The AIA also supports the development of green building 
rating systems and standards. They often promote energy 
efficiency and conservation. While we do not endorse any 
specific rating system or product, green rating systems and 
standards are often the easiest and most cost-effective way to 
achieve energy efficiency in buildings. The ratings serve as a 
checklist to ensure that a building or project actually meets 
energy reduction and environmental protection goals.
    The cost of building green. In my experience, the primary 
concern I hear from clients about building green is first cost. 
It is true that some energy efficient building systems may cost 
slightly more than their traditional counterparts. However, 
once the building is in operation, the savings in energy 
expenditures alone often far outweigh the initial cost of 
installing green systems, especially to long-term owners.
    There is increasing evidence confirming this, and the AIA 
is currently working with economists to research the economic 
benefits of energy efficient Federal buildings. This study will 
analyze the estimated energy and dollar savings the Federal 
Government will realize by implementing our energy reduction 
goals for Federal buildings over their lifespan. We expect to 
complete the study by this summer and would be happy to submit 
it for the record.
    America is ready. Polls show that the American public 
believes the time is now to reduce energy usage and reduce the 
risk of climate change. They increasingly believe it is in the 
best interest of our Nation and the planet to reduce our 
reliance on fossil fuel-generated energy and move toward a 
sustainable future. Reducing energy use in Federal buildings 
would be a major step in redesigning the future.
    Once again, we commend the work of the committee for 
producing this bill and I welcome your questions. Thank you, 
Mr. Chairman and members of the subcommittee.
    [The prepared statement of Mr. Purnell follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Thank you very much, Mr. Purnell, for your 
statement. At this time I would like to yield for an opening 
statement to the ranking member, Congressman Bilbray from 
California. And then, we will go in this order, then I will 
come back to the author of the bill and have him to open for 
questions. Congressman Bilbray.
    Mr. Bilbray. Thank you, Mr. Chairman. I appreciate the 
chance of having this hearing and having the witnesses before 
us.
    Having tried to retrofit and work on a lot of different 
issues myself previous to my life here, I served on the Air 
Resources Board of California, which has one of the most 
successful environmental programs in the history of the world. 
I mean, California today has air that is twice as clean as it 
was 30 years ago with twice as many people. And I think that is 
an accomplishment.
    But some tough, very tough things were done. And a lot of 
sacred cows, even environmental sacred cows, were slaughtered 
to be able to get to that benefit. And I think that there are 
too many people that talk about climate change today, and in 
the Science Committee I have raised this issue, that want to 
talk about changing lightbulbs but not changing power plants, 
that want to talk about requiring insulation of a building but 
not mandating that Government allow alternative construction 
techniques.
    I have seen so often in my 30 years, 40 years, of working 
on environmental issues that the greatest barrier to allowing 
individuals to do what is environmentally responsible has not 
been money, it has been Government regulation. And sadly, we 
have stood in the way. And so I look forward to the questions, 
especially to the representative of the AIA, specifically to 
some issues like how we can do it from the building side of it.
    But I think there are some tough decisions that need to be 
made and I just ask that we keep an open mind and sort of 
abandon our old prejudices that we thought were environmentally 
good. I think global climate change is going to make us all 
rethink. I think those of us involved in the environmental 
community think it is the business community and Government 
that have to change their attitudes. There are a lot of us on 
the green side that have to change our attitudes, too. And I 
yield back, Mr. Chairman.
    Mr. Towns. Thank you very much, Congressman Bilbray. At 
this time I yield to the author of the bill, Congressman 
Waxman, chairman of the full committee.
    Mr. Waxman. Thank you very much, Mr. Chairman. As Mr. 
Bilbray pointed out, we have to look at a more comprehensive 
approach and we have to use our imagination to get to the goals 
that we want to achieve. The goal in this bill is a pretty 
tough one. It calls for carbon-neutrality by 2050.
    Now, some can say that is a long way off and we do not have 
to worry about it, we can just take a few steps and then we 
will see where we go. But it is a goal. And it is a goal that 
is not just a wish, it is a goal that we are going to put in 
place to force action.
    Is it a realistic goal? I would be interested in the 
witnesses' views. Is this a realistic goal, and do you think we 
could meet this goal? Where do you think we will face the 
biggest challenges? Just go down the line. Ms. Figdor.
    Ms. Figdor. Thank you, Mr. Chairman. I do think it is a 
realistic goal. As you said in your opening statement, when 
President Kennedy set the goal of reaching the moon, we did not 
know exactly how we were going to get there, but it was 
important to set the goal initially.
    We do know that we have the technologies today, the 
renewable energy and energy efficient technologies to meet the 
short-term and medium-term reductions that will be required in 
order to avoid dangerous global warming more broadly, and 
certainly to meet the reductions required by this legislation. 
If we aggressively move forward toward developing and deploying 
renewable energy technologies and energy efficiency 
technologies, we should be able to achieve the 2050 goals as 
well.
    Mr. Towns. Thank you. Mr. Harris.
    Mr. Harris. I certainly agree with my colleague here that 
it is achievable, but a real challenge. Our view is that it is 
going to take a lot of effort to do the job that needs doing, 
even with the goals that we currently have. And so looking 
ahead in the timeframe of this legislation, we need to make 
sure that the Federal Government and in fact the whole economy 
are investing in technology innovation, to pick up on the 
comment a little bit earlier from Congressman Bilbray.
    That is certainly a needed component and we believe that 
more has to be done with Federal leadership but not exclusively 
by the Federal Government. The Alliance to Save Energy, for 
example, is working with the AIA, with ASHRAE, with the U.S. 
Green Building Council, and with the World Business Council on 
Sustainable Development on a new initiative that would address 
energy efficiency in commercial buildings of the sort that the 
Federal Government has, and create the technology base not just 
to get to the 30 percent or 50 percent, but to get all the way 
to carbon-neutrality. And that is going to be a major 
investment in the pipeline that we know is 10, 15, 20 years 
long, to get a new technology introduced and in the marketplace 
on a large scale. So I think the first area I would emphasize 
is new technology and aggressive efforts to make sure that 
technology gets deployed as it is developed.
    Mr. Waxman. So we need a long-term, sustained effort by the 
Federal Government in order to achieve this goal. But you think 
it is achievable?
    Mr. Harris. That I do. You asked a second question, and 
that is what is the toughest----
    Mr. Waxman. I want to hear from Mr. Purnell and then I am 
going to have some other questions.
    Mr. Purnell. I would tend to agree. It will take a long-
term sustained effort, and it is not just about reduction. It 
is about new technology and research to develop that 
technology. When the AIA looked at it, we set a goal for 
carbon-neutral buildings in 2030, not 2050. We were looking at 
2050, hoping that by 2050 not only would the buildings be 
carbon-neutral, that we would be putting power back into the 
grid for sale. So that is what we think we can accomplish by 
2030.
    We think we can get to carbon-neutral in the commercial 
sector. I would imagine that if anything, the Federal sector 
has pretty much always led the commercial sector in terms of 
procurement and in building types and innovation. I would hope 
that whatever the Federal Government's investment in this is, 
that we would look at a goal to get there as soon as possible 
and not just to keep looking at 2050. Because it is a long way 
off and if we look at let us get there as soon as we can, we 
are likely to be successful.
    Mr. Waxman. It is interesting, the comment made by Ms. 
Figdor, that we already have existing technologies and 
strategies that we can put into effect right now to get some of 
the early achievements that we want, but we are going to have 
to then go to other technologies down the road. But we do not 
have to worry about them right now. We need to press forward to 
develop them. Is that your feeling?
    Mr. Purnell. I think we can realize enormous savings 
immediately but as we start reducing more and more and more, it 
will take more technology and more time to get to those final 
reductions. Once we get past 60, 70 percent, it is going to 
take seemingly more time to get that reduced to carbon-
neutrality. We can get to 50, 60 percent with existing 
technology within the next 2, 3 years.
    Mr. Waxman. Thank you all very much. Thank you, Mr. 
Chairman.
    Mr. Towns. Thank you very much. Now I yield to Congressman 
Bilbray, the ranking member.
    Mr. Bilbray. Ms. Figdor, can we take a look at the 
terminology? And let me just tell you something. Maybe I am a 
nitpicker but these are important things that we start using 
the right terminology. I keep hearing, Mr. Chairman, the term 
``renewable.'' Renewable is not necessarily clean. And I think 
people are assuming it is renewable.
    One of our biggest challenges of air pollution is wood 
burning stoves. That is renewable. Can we be careful with the 
terminology used? I think I much prefer, personally, ``zero-
emission generators.'' And I know that there are people who get 
used to these terms as if somehow they are always 
environmentally responsible if you can grow it again and go 
into it. But they can be major problems.
    Let me sort of back up a second. Let me go over the AIA's 
position. In America today, we have a national minimum standard 
for building buildings, do we not?
    Mr. Purnell. A minimum standard?
    Mr. Bilbray. Yes.
    Mr. Purnell. ASHRAE standards, yes. But commercially those 
are not necessarily achieved.
    Mr. Bilbray. Right. Unified building code probably is one 
of the most successful government regulations we have ever had. 
And it is kind of an interesting thing because it is a code put 
together through a consensus of building inspectors who are 
kind of unique, Mr. Chairman, in government because they are 
people who have actually been out there building. Most building 
inspectors do not come from college and go right into 
government. Most of them have been in the business, done it.
    What is the AIA doing to work with, to change the Unified 
Building Code to try to push that more over? Because I will 
just tell you personally, I have run into situations where the 
Code has stood in the way of using alternative building 
techniques and different materials. They literally say it is 
unapproved material, even though it is environmentally great, 
sorry, you cannot use it because it is easier for us to turn it 
down. Is there a real effort to re-engineer the Unified 
Building Code and get that consensus from the men and women who 
are actually going to make the decisions on what you can build, 
and that is the building inspectors?
    Mr. Purnell. We are working with Code officials around the 
country at the State and local level.
    Mr. Bilbray. Right. Mr. Harris, do you have any idea what 
will be the cost of this bill to implement?
    Mr. Harris. We have not analyzed that cost, Mr. Bilbray. 
But I think as a matter of principle, and it is a longstanding 
principle, that all the measures that are put in place for 
energy efficiency at least need to be cost-effective. Now, my 
personal view is that cost-effectiveness needs to take into 
account the full cost and the full value of saving energy. And 
that is what one of the important provisions in this bill would 
do.
    Mr. Bilbray. Yes, that is one of the concerns I have with 
the short-term time lines. One of the things that, as Mr. 
Waxman knows, really made us successful in California is we not 
only allow looking at cost-effectiveness, we mandate it. So you 
give priority to the most cost-effective because for a dollar 
saved on one project as you go into time, all at once things 
change and you can actually get the biggest bang for the buck. 
Let us just say that. And always understanding that, like it or 
not, we are always going to be deficient so we need to give 
that priority and from the environmental point of view.
    My question is that when we talk about zero, how do we get 
to zero as long as we are buying dirty coal-fired electricity? 
Well, I do not understand how you get to zero on that unless 
you are talking about buying off somebody else's reduction as a 
way to buy indulgences, something that even the Catholic Church 
does not do any more. How do we get to zero?
    Mr. Harris. Well, I do not have a detailed blueprint of 
that for you, but I would say in concept the first and most 
important thing to do, as you were suggesting a moment ago, is 
to invest in the energy saving measures that are cost-
effective. And we believe that over time, given the time to 
both fully deploy today's technology and to develop the new 
generations of technology that we were talking about, we can 
get down to at least 75 percent, maybe 80 percent reduction in 
energy use in a typical building today.
    That remaining 20 percent will have to come from a non-
polluting source, as you were suggesting, and there are several 
options available. One is renewable resources that are 
available onsite. Solar is the most obvious. Second is 
renewable energy that is available offsite. And the third, of 
course, would be to purchase offsets from action in other 
areas.
    Mr. Bilbray. Yes, and see, the offset issue is where I have 
a real problem. I can see that out in the open market, but I 
think for us to be buying up the offsets is then taking that 
out of the pool that may be able to be used by the private 
sector. And I think that we have an added burden as a public 
agency go onto it.
    I just do not see why we are not negotiating right now, 
looking at not buying any more coal, not buying any more dirty 
electricity, and instead of talking 5 percent reduction we talk 
100 percent reduction because we do not buy from people that 
are putting out greenhouse gases. And I know that sounds like a 
tough one to toe but, as you know, you would go to prison in 
California for generating electricity the way it is generated 
in this town if you tried that in California. I yield back, Mr. 
Chairman.
    Mr. Towns. Thank you very much. I yield to Congressman 
Welch.
    Mr. Welch. Thank you, Mr. Chairman. Ms. Figdor, thank you 
for testifying today. I want to ask you about legislation that 
I have recently proposed, and I understand you have had a 
chance to review. I launched an initiative, and this is small 
compared to what Chairman Waxman has initiated but something 
that as a Member of Congress I could do, and that was to make 
my office carbon-neutral. I did it by working to first reduce 
my office's energy use and then by offsetting the remaining 
carbon emissions.
    And I am offsetting the greenhouse gas emissions related to 
my office activities by providing some financial support to two 
Vermont renewable energy projects, and the end result making my 
office carbon-neutral. Because of the existing law that applies 
to congressional budgets, I used my own personal funds to do 
this and was glad to do it. But it seems to me we may get 
broader participation from other offices if we give flexibility 
so that offices can use their existing funds, not new money, 
but existing funds to do this. So my question is are you 
familiar with my bill?
    Ms. Figdor. Yes, I am.
    Mr. Welch. Has the environmental community, of which you 
are a part, had the opportunity to review it?
    Ms. Figdor. Yes.
    Mr. Welch. Do you have a view about whether this 
legislation would provide a meaningful contribution to our 
efforts? Meaningful but limited, I understand that. But a 
meaningful contribution to our efforts to address global 
climate change if we would add language that addressed the 
issue that some of my friends in the environmental community on 
the other side are raising, that would guarantee that the 
credits do have long-term integrity? Language that would ensure 
that the offsets are real, that they are additional energy that 
is renewable, that they are verifiable, that they are 
enforceable, and that they are permanent? Do you have an 
opinion on that?
    Ms. Figdor. Yes. In the short-term before a mandatory 
national cap and trade program is up and running, a limited 
offsets program definitely has a role to play. It could provide 
a positive contribution by reducing the Federal Government's 
carbon footprint and also providing the EPA much needed 
experience in figuring out how to develop and implement a sound 
offsets program.
    As you stated, there are critical safeguards that we need 
to include in any such legislation to ensure the long-term 
integrity of the offsets. In addition to criteria you 
mentioned, we would also need to ensure that there is surplus, 
that credit would not be given for actions that would have been 
taken anyway. And then also ensuring that EPA is the agency 
that is developing and implementing the program.
    Mr. Welch. Thank you. So the EPA would be the right agency 
to be doing this?
    Ms. Figdor. Absolutely. They are the appropriate agency to 
implement this.
    Mr. Welch. OK, and with the addition of those criteria we 
would have the confidence that the offsets and credits were 
actually providing a lasting benefit to the environment, ensure 
that taxpayer money was well spent, not being wasted, and 
provide us with experience going forward to achieve some of 
these goals in the chairman's bill? If we put those changes in 
that you have suggested and I have discussed, then would that 
be legislation that your organization could support?
    Ms. Figdor. Yes, we would be pleased to support that 
legislation and work with you on it.
    Mr. Welch. OK, thank you. Mr. Harris, although the GSA and 
Defense Logistics Agency are required to provide only energy 
efficient products in catalogs in which they are readily 
available, the system apparently is not working. In some cases 
it can be hard to find Energy Star or other efficient products 
in catalogs where they should be available. In some other cases 
the catalogues claim that products are Energy Star certified 
even though the Energy Star program does not even apply to 
those types of products. Can you help us understand this 
situation? Why is it so easy for products to be falsely 
identified as Energy Star compliant in the government 
procurement schedules and why are these schedules still 
prominently listing inefficient products?
    Mr. Harris. Let me give you an introduction to that topic. 
I think it is also important that the subcommittee hear 
directly from GAS and DLA on that part of your oversight 
function. There is a tremendously complex system of Federal 
procurement, and you have mentioned the two largest Federal 
supply agencies, the General Services Administration and the 
Defense Logistics Agency. They supply literally tens of 
thousands of different products. Since this provision was put 
in law, and even prior to that, similar provisions have been 
part of executive orders for a number of years.
    I would say that both agencies have made limited efforts to 
transform their systems, but there is a lot more to be done. 
The Defense Logistics Agency, in particular, has been forward 
thinking and more aggressive in changing the way that they code 
these thousands and thousands of products in their data bases 
so that you can easily identify the efficient from the less 
efficient ones. In the case of GSA, there is a somewhat 
different system that applies to most of the energy using 
products that they provide. And that is a system where they do 
not directly purchase wholesale and sell retail to agencies, 
but they arrange contract price and conditions. That is the GSA 
schedules. And the GSA position, as I understand it, has been 
that they really do not control the quality of the data that 
describe those products. That is the vendor's responsibility. 
They simply set up a marketplace and set up the terms of 
exchange and it is up to the buyer to watch out for him or 
herself.
    I think personally that more can be done. This is a world 
of highly automated systems online. It should be possible, with 
some effort, to design checks and controls into the online 
systems that are increasingly used so that it is easier for a 
Federal buyer to know which product is efficient and which is 
not, to know which ones meet the law and which do not. So there 
is a lot more to be done and I think that is something the 
subcommittee should address directly to the GSA.
    Mr. Welch. OK, thank you. I yield back the balance of my 
time.
    Mr. Towns. Thank you very much. I now yield to Congressman 
Issa.
    Mr. Issa. Thank you, Mr. Chairman. This is a really good 
hearing. I appreciate the opportunity to sit in. It is kind of 
interesting, I did not mention in my opening remarks but I am 
in the Cannon Office Building. And although I respect the 
Member's statement that he is carbon-neutral, I have never been 
in a less environmentally friendly building. You can imagine, 
it has a 1939 air conditioning add-on that does not work right, 
windows are open everywhere, they are single pane and they are 
historic, meaning they leak. One of my first questions, and it 
is not that I am complaining, Mr. Chairman, you are here in 
Rayburn, are you not?
    Mr. Towns. I must admit, I am.
    Mr. Issa. Specifically, one of the things not mentioned in 
the bill but I would like to bring up, do you believe that this 
committee should first of all hold the House of Representatives 
to the highest standards at the earliest date and if so should 
we include either in this or in companion legislation bringing 
the House of Representatives at least up to, Mr. Purnell, what 
one might call today's standards?
    Mr. Purnell. Well, I will speak for the AIA because we 
looked at ourselves and we are in the process right now of 
greening our headquarters building at 1735 New York Avenue and 
bringing it up to today's standards. The building was completed 
in 1974, not quite 1939, and although it appears----
    Mr. Issa. No, no, we were 1907. They put in the air 
conditioning in 1939 which is when we stopped being closer to 
carbon-neutral.
    Mr. Purnell. Well, we are sort of getting our own house in 
order so that we can walk the walk and talk the talk with some 
certainty and say this is how you do it with an existing 
building. It does take an investment of both time and 
resources. And our members have suggested that this is what 
they would like to see and our Board has made that commitment. 
So to your question, yes, I think you should.
    Mr. Issa. Do you think we should amend the historic 
preservation portions to allow for further modernization than 
presently is allowed for many buildings, including the ones 
that we are in?
    Mr. Purnell. I do not know without looking at the building 
from a design standpoint which preservations you would need to 
be relieved from.
    Mr. Issa. Well, for example, the Architect of Capitol does 
not allow the windows to be changed either on the Capitol or on 
the Cannon House Office Building, which by definition means 
they leak even when painted shut.
    Mr. Purnell. As far as I know, in the Department of the 
Interior regulations, there is nothing that says you cannot 
change the windows. You cannot change the profile of the 
windows or the material of the windows, but you certainly can 
make them leak-free and thermal pane. It will cost more, but 
you can do that. And you can do it in such a way that you will 
not know that the windows now are thermal pane.
    Mr. Issa. Thank you for making the record complete on that. 
I will use it. I think probably the biggest question I have, 
and it is following up on the earlier questions, is the 
business of distorting the market. Would I be correct in saying 
that in our legislation we should ensure that 100 percent of 
any offsets we buy are new production? That we not simply go 
out and buy nuclear energy or go out and buy wind energy that 
is already there and thus deny the private sector and meet our 
goals by, if you will, cherry-picking the market? Only the 
disagreers need respond.
    [No response.]
    Mr. Issa. The case of the automobile fleet, I would be the 
first to say that we have way too many Suburbans hanging around 
Washington, DC, even the unarmored one. But does anyone know 
how much improvement we could make today if we simply went to 
the most energy efficient automobiles available within, let us 
say, reasonable use? I mean, you cannot use a Chevy sedan to do 
big truck lifting, but how wasteful are we today? In other 
words, how many quick gains, Ms. Figdor?
    Ms. Figdor. I do not know the answer precisely off the top 
of my head, but there is about one third of the vehicle market 
that currently meets the California emissions standards, the 
greenhouse gas standards that would be required for the Federal 
fleet in this bill. And that requires an overall reduction of 
about 30 percent by 2016.
    Mr. Issa. And following up, do you support nuclear as part 
of reaching this goal?
    Ms. Figdor. No, we do not support the use of nuclear power.
    Mr. Issa. Do you support carbon sequestration or what we 
often call clean coal?
    Ms. Figdor. We think it is important to continue the 
research into carbon sequestration and see if it is a viable 
technology that can be part of our strategy to address global 
warming.
    Mr. Issa. Great. I am sure we will continue this for many 
days to come. Mr. Chairman, thank you very much.
    Mr. Towns. Thank you very much for your questions. Let me 
begin with you, Ms. Figdor. You say the time to act is now. 
What will happen if we wait a few years? And let me put the 
flip side to it, how would we be in better position if we had 
started doing things say 5, 7 years ago?
    Ms. Figdor. We would be in a much better position if we had 
started 5, 7 years ago. About a fourth of all carbon dioxide 
emissions remain in the atmosphere essentially forever, for at 
least 500 years. So our actions and any delay that we take in 
starting to reduce our emissions has enormous consequences for 
future generations in terms of the actions that they will need 
to take in order to avoid the worst consequences of global 
warming.
    Mr. Towns. Thank you. Let me just say to my colleagues that 
I do have some good news. In response to a call from Speaker 
Pelosi, the Chief Administrative Officer of the House has 
issued a preliminary report on greening the Capitol. So I just 
wanted to let you know there is some thinking about it.
    Mr. Bilbray. I have read it.
    Mr. Towns. Yes, thank you very much. Mr. Harris, you say 
that even before we start following new requirements, Federal 
agencies need to follow the laws already on the books. What can 
Members of the U.S. Congress do to have these agencies follow 
the law?
    Mr. Harris. Well, as I was mentioning earlier, Mr. 
Chairman, there are two critical areas. One is oversight and 
there are new provisions in the proposed legislation by 
Chairman Waxman that would create a flow of information through 
the Office of Management and Budget to the Congress in addition 
to the information that already comes in the annual report to 
Congress that is prepared by the Department of Energy's Federal 
Energy Management Program. So frankly I think that looking at 
those reports, asking questions, holding hearings, getting the 
Federal representatives in, asking them what is important to 
help them solve the problem is critical.
    The second area is assuring adequate appropriations and 
stability of appropriations so that agencies are not facing ups 
and downs in their budget every year. And it is true, they do 
have alternative sources of financing as I mentioned in my 
comments and in our written testimony, but that baseline of 
annual appropriations to hire staff, to get staff trained and 
experienced, and to make sure there is long-term management for 
these programs and some continuity are absolutely essential to 
carrying out any of these provisions.
    Mr. Towns. Right. Thank you very much, Mr. Harris. Let me 
move to you, Mr. Purnell. In the past we have heard a lot of 
comments about aesthetics in terms of people, in terms of the 
general feel of green buildings. We have heard these comments 
down through the years. I was hoping you would sort of set the 
record straight today. Could you describe how a typical green 
building differs from a standard building we would be more 
accustomed to? And how would working in a green building be 
different for the average person than a standard building?
    Mr. Purnell. Well, to answer the last part of that, it 
would probably be healthier to be in a green building because 
of the emissions that would not be generated from using certain 
types of carpets or paint or fabrics in a building that is not 
a green building.
    And let me say that green does not have to imply that it is 
an ugly building aesthetically. I mean, we heard the same 
arguments when the Americans with Disabilities Act was being 
implemented, that the ADA is that we are going to have all of 
these ugly ramps and these ugly door pulls and the poles in the 
bathrooms are going to be looking crazy. And I would suggest 
today in a modern building that meets all of the ADA standards 
there is nothing that is apparently ugly or unattractive about 
it in that it does meet all of the requirements. As a matter of 
fact it is pretty much transparent to the average user that the 
building is handicapped accessible.
    That would be the same with probably a green building in 
time. You may have a green roof that appears to be sort of 
unique when a person goes out there but in time, after other 
buildings are implementing the same sorts of strategies, things 
that are obvious today in a couple years will be normal and in 
use. I mean, look at what we have done with the automobile 
industry in alternate fuel cars. They are integrating that same 
technology in body styles that now look just like every other 
car on the street. So, I do not see that there will be an 
impact, or a negative impact, with aesthetics.
    Mr. Towns. Thank you very much. If this bill becomes law, 
Federal agencies will have a couple of years to prepare to 
reduce their greenhouse gas emissions. Let me begin with you, 
Mr. Harris. I am wondering what discrete measures you would 
advise Federal facility managers to consider to reduce the 
emissions associated with their facilities. What can they do 
right now, what would be the impact on our energy bottom line?
    Mr. Harris. Well, let me focus on the energy saving 
activities. There are some other provisions that might help to 
reduce greenhouse gas emissions, perhaps choosing different 
fuel sources, but that often involves a more significant 
capital investment. I think that if you look at energy 
efficiency in existing facilities, there are study after study 
and case after case that show that in almost any Federal 
facility, just like non-Federal facilities, commercial 
buildings, you can typically find 15 maybe 20 percent savings 
out of relatively low cost, simple things just making sure that 
the buildings and their systems are operating right.
    There is a process called commissioning, which means that 
you go through a building, you check out its systems, and you 
make sure that what was designed into them is what is still 
there, that changes have not been made, perhaps inadvertently 
over the years. That the dampers that bring in outside air are 
not stuck open or stuck closed when you do not want them to be. 
So there is a range of activities that are fairly well 
established that involve energy analyses or energy audits of 
operation and maintenance improvements and the commissioning or 
recommissioning of these mechanical systems. So I think that is 
an important short-term step.
    A second step, though, is to make sure that the occupants 
of those buildings understand how the building works and 
understand what they can do as occupants in their own way to 
make the building work as intended. Not opening the windows at 
the wrong time or closing them if they should be open to let in 
fresh air. Not fiddling with the thermostats or getting up on 
their desks and changing the settings in the air ducts. Turning 
off the lights, something as simple as that. Turning off their 
office equipment.
    So there is a very important educational effort for Federal 
employees and there are examples of how this has worked very 
well in certain sites and in certain Federal agencies. And for 
that matter, I would add it to the agenda for greening the 
congressional buildings. Helping the occupants of those 
buildings, Members of Congress and the staffs to understand how 
to use their buildings and their equipment as efficiently as 
possible.
    So those are the two things, I think. Short-term measures 
operations and maintenance to get that first 15 or 20 percent 
and then helping the occupants of the building to make those 
measures succeed over the long-term.
    Mr. Towns. Right. Thank you very much, Mr. Harris. Let me 
ask you, Ms. Figdor and also Mr. Purnell, do you have any 
suggestions for a Federal facilities manager who is thinking 
about how to meet the goals? Do you? Let us start with you, Ms. 
Figdor, and then I will come to you, Mr. Purnell.
    Ms. Figdor. I think as Mr. Harris alluded to, employing the 
technologies that we already have at our fingertips but are not 
using. I mean, there really are enormous opportunities that we 
are just passing up at this point, and then just being smarter 
about the decisions that we are making.
    Mr. Purnell. Many of the decisions are sometimes management 
and operational decisions, like when the building is cleaned. 
In some cases you wait until everyone is out of the building, 
therefore you are running the entire system for the building 
for heat or air and lights while you have a very skeletal 
maintenance crew within a building. You could maybe start that 
whole process earlier in the day. You could design it in such a 
way, design the building systems in such a way that you do not 
have to run the complete systems or run a whole floor for a 
skeletal crew that is in there or for an employee who wants to 
work late on night. That you are not heating or cooling an 
entire floor or third of the building based upon the 
temperature controls for that particular building. Those are 
things that could be looked at in terms of just operational 
things that are happening not only in the Federal Government 
but are happening in the commercial sector as well, the private 
sector.
    Mr. Towns. Thank you very much. Let me yield now to the 
ranking member, Congressman Bilbray.
    Mr. Bilbray. Yes, thank you very much. Ms. Figdor, do you 
believe, well let me stop a second. Now, I am sort of looking 
at this. I appreciate the fact that you have talked about smart 
growth and about non-point source emissions that are always 
missed out, that the real footprint is missed out. I will tell 
you, every time I am in a hearing on greenhouse gases, I look 
at the fact that we are having trucks bring our water in to us 
and us have an on-source purification. Now, I know that seems 
nitpicking, but after spending 18 years looking at deodorants 
to try to stop emissions you really do get down to those kind 
of nitpicking.
    Ms. Figdor, I have a question for you. Do you believe that, 
speaking of automobiles and emissions stuff, that corn-based 
ethanol is part of the answer to fight greenhouse gases?
    Ms. Figdor. I think it can help as a transition fuel, but 
we need to move quickly to cellulosic ethanol that will get us 
a lot more reductions and be a lot more sustainable overall.
    Mr. Bilbray. Do you believe that corn-based ethanol is a 
net reduction in greenhouse gases?
    Ms. Figdor. If it is sustainably produced and converted 
into fuel, yes.
    Mr. Bilbray. OK, I just want you to know for over 12 years 
we have been asking the Federal Government to stop the mandate 
to use it for environmental reasons. And I know that there are 
people in this town that defended it. Do you understand that 
the first thing that a farmer does when they plant their corn 
is put nitrogen into the soil? Do you realize where that 
nitrogen comes from? Do you know the source?
    Ms. Figdor. Yes.
    Mr. Bilbray. What is the source?
    Ms. Figdor. Sir, I fully agree with you. Like I said----
    Mr. Bilbray. It is natural gas.
    Ms. Figdor. It does have to be sustainably produced.
    Mr. Bilbray. OK, I am just saying not just that, but the 
fuel used to produce this stuff, I just wish that some of us 
that claim to be environmentalists are willing to stand up and 
say the emperor has no clothes. And remember the ethanol and 
methanol mandate. I got trashed because I stood up against that 
mandate and now the wells are polluted around here and people 
who claim to be environmentalist supported that mandate. But if 
you cannot even say that Archer Daniels Midland selling, that 
corn-based ethanol just does not pencil out, not just 
economically but also environmentally. I got a real problem 
with your credentials if we cannot even agree on something as 
basic as the fact the environmental community made a mistake. 
And this is what I meant by business has to change their 
attitudes and reassess their values. The environmental 
community has to do this, and I am very concerned if you can 
still defend corn-based ethanol sitting before this committee.
    Ms. Figdor. USPIRG was a strong supporter of California's 
waiver of the ethanol requirement, and that was something that 
we worked and were very----
    Mr. Bilbray. What year did you support it?
    Ms. Figdor. A few years back, now.
    Mr. Bilbray. A few years back? Well let me tell you. In 
1995, 1996, 1997, 1998, 1999, and 2000 you attacked the 
proposal. It was not until after 2000 and the wells were 
polluted that you reversed your position. So if I am bitter 
here, it is because I was strung up as being anti-environmental 
when I was carrying a bill for the Air Resources Board, which I 
think you would agree is not somebody who is in the pocket of 
polluters. So I would just ask that we get a concern on that. I 
only bring that up because it really concerns me that we 
rethink what you have been taught because we have to rethink 
everything.
    Mr. Harris, I really appreciate your talk about smart 
growth because the one thing we have not talked enough about is 
the fact that we do not do enough to get government and local 
government to take on the special interests and the active 
opposition to smart growth. You know my district, it is a very 
environmentally sensitive district along the California coast. 
They are so environmentally sensitive, Ms. Figdor, they recycle 
the Congressmen.
    But the same people who claim to be environmentalists will 
oppose intensification of development around the train station. 
And nobody calls them down on the fact that this, I have not 
seen an environmental group stand up and really fight for smart 
growth when it means intensification to do all of it. And I 
want to thank you very much for bringing that up.
    Mr. Harris. Could I suggest that our colleagues at the 
Natural Resources Defense Council also feel very strongly about 
smart growth strategies.
    Mr. Bilbray. Yes. Mr. Chairman, I would really ask that we 
have another hearing. I think that is really important because 
you have people that have the concept here but I would like to 
have the hearing of those who are actually doing procurement, 
actually doing the leases, actually out there. And let us have 
a dialog with them about the practical barriers. You have the 
theoretical approach here. Now we have to get the practical 
people in to try to put them together, and I think that can 
really make this a possibility. Thank you very much, I 
appreciate it.
    Ms. Figdor, I appreciated the chance to be able to vent my 
frustration. You can imagine standing up for the environment 
and having people trash you and say that you are trying to 
pollute the air when you have spent most of your life fighting 
for that clean air. And I appreciate the ability to work with 
you in the future. Thank you.
    Mr. Towns. Thank you very much, Congressman Bilbray. Let me 
thank the witnesses. I really appreciate you coming and sharing 
with us. I think this is the way we really come up with strong, 
practical, and important legislation. It was said many, many 
years ago that Benjamin Franklin, I am sorry, it was Thomas 
Jefferson who read a book on how to swim. And he read it, how 
to pull his legs and kick and pull his arms, and he jumped in 
the deep water and almost drowned.
    I think that we do this here in the Congress quite often, 
that we do not get enough input in our legislation before we 
jump and we do it. So I want to thank you for coming and 
sharing with us. And of course, we hope that as we continue to 
talk and dialog that we will be able to get strong legislation 
that will move us in the right direction. Because this is a 
very important issue and I think this is the way we get it 
right. Thank you so much for coming.
    And on that note, this subcommittee is adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
